HHS/OIG-Audit--"Review of Costs Claimed Under The Title IV-A EmergencyAssistance Program By The Pennsylvania Department of Public Welfare For Children in thePhiladelphia DHS Juvenile Justice System From Jan 1, 96-Jun 30,96,(CIN:A-03-98-00590)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed Under the Title IV-A Emergency Assistance (EA) Program by the Pennsylvania Department of
Public Welfare (DPW) for Children in the Philadelphia Department of Human Services (DHS) Juvenile Justice System from January
1, 1996 through June 30, 1996." (A-03-98-00590)
September 1, 1998
Complete
Text of Report is available in PDF format (1.13 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if DPW identified all costs associated with children in the DHS juvenile
justice system on its claims for Federal Financial Participation (FFP) submitted to the United States Department of Health
and Human Services (HHS) Administration for Children and Families (ACF). Proper identification of these costs was necessary
so that ACF could disallow them in accordance with its policy dated September 12, 1995. This policy stated that FFP was
not available under the EA program, effective January 1, 1996, for costs associated with children in the juvenile justice
system.
Our review showed that DPW continued to claim FFP for services provided to children in the Philadelphia DHS juvenile justice
system after January 1, 1996, and did not properly identify $26 million of these costs on its claims for FFP. As a result,
ACF was unable to disallow these costs and DPW was reimbursed FFP of about $13 million for services provided to children
in the Philadelphia DHS juvenile justice.